No.

IN THE SUPREME COURT OF THE UNITED STATES

MARK JOSEPH DERRICO,
Petitioner

v.
STATE OF GEORGIA.

CERTIFICATE OF SERVICE
I, Andrew T. Mosley, II, a member of the Bar of this Court, certify that
on this 2nd day of January 2020, I caused to be served by first-class mail,
postage prepaid, the enclosed three copies of the Petition for Certiorari and
Appendix in this case to each of the below recipients. I am also serving copies
of my certificate of compliance and this certificate of service in the above
proceeding on:
William Finch
Solicitor General
Forsyth County Solicitor’s Office
101 East Courthouse Sq.
Cumming, GA 30040

Christopher M. Carr
Attorney General
Georgia Department of Law
40 Capitol Square, S.W.
Atlanta, Georgia 30334-1300

I further certify that all parties required to be served have been served.
/s/ Andrew T. Mosley, II
Andrew T. Mosley, II
Dated: January 2, 2019

